                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 3) Version 3.0
               Reporting Entity: Department of State ‐ OIG
             Month Ending Date: 07/31/2009

                                                           Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau            Recovery Act TAFS             Sub‐Account     Award Type       US Indicator        State Code       Total Obligations   Total Gross 
                                                                   Code (OPTIONAL)                                     (ONLY for grants                          Outlays
                                                                                                                       and cooperative 
No.                                                                                                                      agreements)
      Department of State ‐ OIG   (19‐0530 2009 \ 2010) State ‐                                                                                   $0               $0 
  1                               OIG ‐ Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10


                                               Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Non‐Recovery Act TAFS            Sub‐Account     Total FY 2009    Total FY 2009     Total FY 2010      Total FY 2010 
                                                                   Code (OPTIONAL)    Obligations     Gross Outlays      Obligations       Gross Outlays
No.
  1 Department of State ‐ OIG     (19-0529 2009) State - OIG                                                                          $0                 $0
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                          State OIG ARRA Monthly Report July 2009.xlsx
                                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 3) Version 3.0
        Reporting OIG: Department of State ‐ OIG
    Month Ending Date: 7/31/2009

       Recovery Act New Hires                                Testimonies:
        Hired (monthly):   0.00                       Provided (monthly):              0

      Hired (cumulative):           0.00           Provided (cumulative):              0


                Complaints                      Whistleblower Reprisal Allegations                              Investigations                     Audits / Inspections / Evaluations / 
                                                                              Monthly Data
                  Received:          0                       Received:       0                                        Opened:            0                          Initiated:      1
                                                            Accepted:        0                                         Active:           0                        In Process:       2
                                                                                                                                                             Completed Final 
                                                                                                          Pending Decision:              0                   Published Work         0
                                                                                                                                                                   Products:
                                                                                                                                                             Completed Final 
                                                                                                    Closed without Action:               0                 Unpublished Work         0
                                                                                                                                                                  Products*:
                                                                                                              Accepted for 
                                                                                                                                         0             Interim Work Products:       0
                                                                                                              Prosecution:
                                                                                                       Prosecution Denied:
                                                                                                       Prosecution Denied:               0

                                                                                                               Referred for 
                                                                                                                                         0
                                                                                                    Alternative Resolution:
                                                                           Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                  Received:          0                             Received:           0            Closed without Action:               0                   Published Work         0
                                                                                                                                                                   Products:
                                                                                                                                                             Completed Final 
                                                                                                                 Accepted for 
                                                                   Accepted:           0                                                 0                 Unpublished Work         0
                                                                                                                 Prosecution:
                                                                                                                                                                  Products*:
                                                                                                       Prosecution Denied:               0             Interim Work Products:       0

                                                                                                               Referred for 
                                                                                                                                         0                 Cumulative Total:        0
                                                                                                    Alternative Resolution:

                                                                                                          Cumulative Total:              0



*These work products were not published because they contain proprietary or other sensitive information that cannot be made available
                                                                                                                            available to the public.                      State OIG ARRA Monthly Report July 2009.
                                                                                                                                                                                                             2009.xlsx
                                            OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 3) Version 3.0
     Reporting OIG: Department of State ‐ OIG
 Month Ending Date: 07/31/2009

       No.                  OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1           Initiated survey of contract and grant staffing and qualifications, in coordination with RATB and IG community
        2
        3
        4
        5
        6
        7
        8
        9
       10

       No.                               OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1           Update Hotline posters and website reporting mechanisms to facilitate reporting of ARRA-related allegations
        2           I iti t audits
                    Initiate  dit off Department
                                      D    t   t and
                                                   d IBWC tracking
                                                          t ki and d oversight
                                                                          i ht off ARRA funding
                                                                                        f di
        3           Review open recommendations for lessons learned and best practices on contracts/grants/acquisitions
        4           Incorporate ARRA-related fraud awareness issues into audit and investigative briefings and training
        5
        6
        7
        8
        9
       10




                                                                                                  State OIG ARRA Monthly Report July 2009.xlsx
